                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A13040056                                                                          Page 1 of 1



                  Our office received an allegation that a proposal 1 was submitted with a falsified letter of
         support. In this case, the letter of support was from another department within the university.
         The PI2 removed the original date from a letter of support for a previous proposal and submitted
         it with the new proposal.

                 The university reviewed the matter and determined that although it was not an acceptable
         research practice, the PI's actions did not rise to the level of research misconduct. However, the
         PI received a written admonishment that was placed in his personnel file.

               We believe that the university's actions adequately protect the interests of the federal
         government. Therefore, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
